No.

20°6056
FILED'
OCT O3 2020
IN THE

SUPREME COURT OF THE UNITED STATES

Matthew .Tones

-PETITIONER

Vs.
Dr. Jose Capiro -RESPONDENT
ON A PETITION FOR A WRIT OF CERTIORARI TO
Delaware Supreme Court
PETITION FOR A WRIT OF CERTIORARI

Matthew Jones
11366 Sussex Highway
Greenwood, Delaware 19950
.(302) 349-5251
AzraelLinusSmith@gmail. com

QUESTIONS PRESENTED

1. Did the lower Courts correctly use the law 10 Delaware Code Subsection
8803? The Delaware Superior Court, Judge Neil Eason Primos, decided
that my complaint is “factually frivolous” and my allegations are
“baseless, of little or no weight, value or importance, [or] not worthy of
serious attention or trivial.” He decided that my claims are “legally
frivolous” and are “based on an indisputably meritless legal theory.” He
decided that my claims were “malicious” and that they were “designed to
vex, injure or harass, or which are otherwise abusive of the judicial
process or which realleges pending or previously litigated claims.” He
cited 10 Delaware Code Subsection 8803. The Supreme Court of
Delaware Affirmed.
2. Were my complaints previously decided in Jones v. Dr. M. Hay (2019)
Del. Superior Court K19C-11-029 NEP , and Jones v. Commissioner A.
Howard (2018) U.S. District Court ofDelaware 18-1207 RGA as the
Superior Court judged? The Supreme Court of Delaware Affirmed.
3. Is a 42 U.S.C. Section 1983 claim correctly made when a Court appointed
psychiatrist misdiagnoses a victim as illiterate, unable to control his body,
hallucinating, delusional, and or having aversion and negative symptoms?

4. Is a 42 U.S.C. Section 1983 claim correctly made when a Court appointed
psychiatrist forces a patient to take medications that damage his heart,
and continues to prescribe the heart damaging medications as the heart
damage persists, and becomes possibly life ending?
5. Is an 8th Amendment to the U.S.A. Constitution claim correctly made
when a Court appointed psychiatrist misdiagnoses a victim as illiterate,
unable to control his body, hallucinating, delusional, and or having
aversion and negative symptoms?
6. Is an 8th Amendment to the U.S.A. Constitution claim correctly made
when a Court appointed psychiatrist forces a patient to take medications
that damage his heart, and continues to prescribe the heart damaging
medications as the heart damage persists, and becomes possibly life
ending?
7, Should a medical affidavit of merit signed by an expert witness be
required to make these claims?

\

LIST OF PARTIES

[ X ] All parties appear in the caption on the cover page.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

EVENTS

8

REASONS FOR GRANTING THE WRIT

16

CONCLUSION

18

INDEX TO APPENDICES

APPENDIX A

Order of the Delaware Supreme Court

APPENDIX B

Order of the Delaware Superior Court

TABLE OF AUTHORITIES CITED

CASES

PAGE

NUMBER
1. Phillips v. County of Allegheny 515 F. 3d 224, 229 (3d Cir. 2008)

4

2. Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94......................

4

3. O'Connor v. Donaldson, 422 U.S. 563...........................................

7

4. Addington v. Texas, 441 U.S. 418

7

5. Jones v. Dr. M. Hay (2019), Del. Superior Court K19C-11 -029 NEP.... 15
6. Jones v. Comm. Howard (2018), U.S.D.C. DE 18-1207 RGA

15

7. Estelle v. Gamble, 429 U.S 97 (1976)....................................

16

8. Farmer v. Brennan 511 U.S. 825 S.Ct(1970).........................

16

9. Johnson v. Connections 196 A. 3d 412............................

16

10. Lindsey v. Brady 537 F Supp 2d 666

16

11. Colburn v. Upper Darby Township, 946 F. 2d 1017 3d Cir. 1991

16

STATUTES AND RULES
1. Delaware Code Title 10 Subsection 8803
2. 42 U.S. Code Section 1983
3. 14th Amendment

15
16,17
16

\

4. 8th Amendment

16,17

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
judgments below.

OPINIONS BELOW

[X ] For cases from State Courts:

The opinion of the Delaware Supreme Court, Case Number 73, 2020, appears at
Appendix _A_ to the petition and is
[ X] reported at
https://law.iustia.com/cases/delaware/siinreme-conrt/202Q/73-2Q20 html

The opinion of the Superior Court of Delaware, Case Number K19C-11 -048
NEP, appears at Appendix _B_ to the petition and is
[X ] not reported.

1

JURISDICTION

[X ] For cases from state courts:
The date on which the Delaware Supreme Court decided my case was
September 1.2020

The jurisdiction of this Court is invoked under 28 U.S.C.§ 1254 (1) and 28 U.S.
Code §2101 .

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Phillips v. County of Allegheny 515 F. 3d 224, 229 (3d Cir. 2008)
2. Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94
3. O'Connor v. Donaldson, 422 U.S. 563
4. Addington v. Texas, 441 U.S. 418
5. 10 Delaware Code Subsection 8803
6. Jones v. Dr. M. Hay (2019) Del. Superior Court K19C-11-029 NEP
7. Jones v. Commissioner A. Howard (2018) U.S. District Court of
Delaware 18-1207 RGA
8. 42 U.S.C. Section 1983
9. The 14th Amendment
10. The 8th Amendment
11. Estelle v. Gamble, 429 U.S 97 (1976)
12. Farmer v. Brennan 511 U.S. 825 S.Ct (1970)
13. Johnson v. Connections 196A. 3d 412
14. Lindsey v. Brady 537 F Supp 2d 666
15. Colburn v. Upper Darby Township, 946 F. 2d 1017 3d Cir. 1991

3

STATEMENT OF THE CASE

“The Court must accept all factual allegations in a complaint as true and
take them in a light most favorable to a pro se plaintiff,” Phillips v. County of
Allegheny 515 F. 3d 224, 229 (3d Cir. 2008).
An officer who acts in violation of the Constitution ceases to represent
the government”, Brookfield Const. Co. v. Kozinski, 284 F. Supp. 94.
My lawsuits are accurate accounts of the timeline of my life being
victimized, persecuted, battered, and otherwise injured. Mainly, nearly all of my
assailants have been employees of the U S. Judicial Branch of Government, its
Police Powers, and its State Actors. My life may be ending, and my cause of
death will be that I was treated illegally by your office of government, all of my
life. My blood is on your hands. This case may be your final opportunity in the
-

Court System to affirm the laws of the United States, the U.S. Constitution, the
Delaware Code, and the U.S. Case Law. Unanimously, in past cases, Courts
have decided to treat me as a criminal for reporting criminal activity. From my
birth until the age of puberty, I was used as a sex slave. In the first years that I
was able to, I sued for relief from it in the Delaware Superior Court. My
lawsuit’s dismissal laid the foundation for my persecutions that were yet to
come. The Superior Court found me to be delusional and my claims to be false.

4

In the years following the judgment, the Courts helped change my status as the
highest ranking student in Delaware (a President’s Education Award winner, the
recipient of the highest score on the Delaware State Test, a student who started
attending college in the 8th Grade), to the status of a dangerous mental patient,
who is a threat to myself and others. For years after my initial hospitalizations, I
was medicated too highly to function or defend myself from the diagnosis. My
health was also failing from the innumerable rapes and beatings. Part of the
healing from something as severe as anal rape is the body shutting down to
recover. By the time that I reached adult age, I had lost all of my friends. Dead
due to. pedophilia, police and gang violence, and drug abuse. The few survivors
who started kindergarten with me were a mix of those in jail, those living in
identity theft (possibly on the police force or working for a mobile crisis unit),
the few that had married, a few that dropped out of school to start working at a
young age, and a few who had greatly relocated. To seek relief, I contacted
every law firm in Sussex and Kent Counties. I contacted over 150 law firms in
New Castle County, Delaware, and the Philadelphia, Pennsylvania, area. No one
was interested in doing pro bono work, working for an affordable rate, or
working for a percentage of money won. No one was interested in working for
me for the public good. My mental health Court ordered diagnosis states that I
cannot communicate on my own. This includes writing and speaking. It states

that I cannot control my body movements. It states that I cannot stay in a
consciousness that is in reality. This is a long standing diagnosis that still holds.
I sued on my own against these orders. The Court called my writing, which had
been awarded by educational institutions over 100 times, to be delusional, false,
and insane. I returned to school and majored in Legal Studies to assure that my
lawsuits were correctly written. My lawsuits written in the last year, are written
m the formula that was taught to me by my instructors at Delaware Technical
and Community College. My citations are taught to me by WestLaw. Still, the
Delaware Courts dismissed my lawsuits and Ordered that they are delusional,
false, and insane. My obligations have been met. In my first lawsuits, I cited the
U S. Constitution, U.S. Code, and Delaware Code and was told that you are
relying only on case law. Despite the impossibility of reading each case, the
impracticability of relying on judgments that are not uniform, and the high
illegality of practicing a system like the Magna Carta when we are supposed to
be relying on the laws of the U.S. Legislative Branch of Government, I
willingly entertained writing in case law. To support this particular case against
DR. CAPIRO, there are supporting Cases from the U.S. Supreme Court,
supporting Cases from the U.S. Court of Appeals, and supporting cases from the
Delaware Superior Court. Still, it was dismissed. The judgment is the same:
frivolous, delusional, insane, etc.. My mental health diagnosis remains the same:

unable to communicate verbally or in writing, unable to stay in reality, and
unable to control my body. I continually live in fear of my life ending m a
mental hospital or under the influence of court prescribed medications by
officials who ignore the symptoms of mental illness, continually, and ignore the
U.S. Supreme Court judgments of O'Connor v. Donaldson, 422 U.S. 563, and
Addington v. Texas, 441 U.S. 418. Prior to this last Court Ordered Medication
regimen, which may end my life at any time, I was Power of Attorney of my
mother, an accredited Real Estate Agent, a recipient of a Distinguished High
School Diploma, and a lifetime member of the Phi Theta Kappa National Honor
Society. I am still all of these things. I recently graduated with an Associates
Degree in Legal Studies. I exercise 5 days a week. I often cook the family
meals. I cut my own hair. This year, I planted a fruit and vegetable garden in our
yard. There has never been any evidence that I have schizophrenia, whereas, the
scars of-my-ill-treatment by the U.S. Judicial Branch employees are paramount,
unmistakable, and totally encompass my being and my records.

7

EVENTS

DR. JOSE CAPIRO started involuntarily treating me psychiatrically via a
Court Order of COMMISSIONER ALICIA HOWARD in March 2017. My
longtime Psychiatrist, Dr. Gregory VillaBona, had his license revoked. He has
testified, repeatedly, that I am “not a threat to myself or others.” I had scheduled
an appointment with a new psychiatrist, but was Ordered by the Court that I
could only see Dr. Capiro and Connections. I protested that this is “group
boycotting” and “monopolizing,” but was threatened with involuntary
hospitalization if I did not comply. DR. JOSE CAPIRO is the Court appointed
Psychiatrist. Therefore, he is a State Actor. I saw his NURSE PRACTITIONER
STEPHANIE JOHNSON, in lieu of seeing him, at least once a month. In the +2
years of treatment, I saw him 3 times. Both are employees of CONNECTIONS.
At-the onset of treatment, and for all of my life, I had a healthy heart. DR.
CAPIRO administered injections of Invega starting at 156 milligrams and
progressing to 234 milligrams. I noticed dizziness, feeling faint, and developed
a cough. I complained to DR. CAPIRO and his Nurse Practitioner,
STEPHANIE JOHNSON. No changes were made. I had to visit the emergency
room at Bayhealth in Milford, Delaware. My pulse rate was over 120 beats per
minute. I was diagnosed with Sinus Tachycardia. My condition worsened and I

8

complained about it at my Mental Health Commitment Hearing. “(Transcript
from Mental Hearing, Superior Court of Delaware, State v Jones 171-1117. page
19, lines 15-20) Mr. Jones. When I first started in your care, lab tests were taken
and I was in every way healthy. Do you feel that you owe me any debt for
infecting me with fatal illnesses? (pages 20, lines 15-17, 18-23) Dr. Capiro: I
think you need a family physician to see you and monitor you closely about
that. There are alternatives to the current treatment. . .We should seek those
medications, (page 21, lines 3-4) Mr. Jones: Is the first role of medicine still to
do no harm from the Hippocratic Oath? (page 21, lines 5-6) Dr. Capiro: As far
as I know. It might be the first, but it is no harm.” “(Prior to me entering the
CourtRoom, DR. CAPIRO said to COMMISSIONER HOWARD)(page 3 lines
16, 21-23) Dr. Capiro (to the Court): I can’t leave, right?.. And I mean he
comes, you know, loaded with proof that he does not have schizophrenia. ” But,
------ DR. CAPIRO did not change the medication, or seek alternatives. The
Prosecutor still sought that I be medicated this way, and the COMMISSIONER
ALICIA HOWARD ruled that this medication should continue. After receiving
my next injection, I had to visit the Emergency Room. My pulse rate was over
140 beats per minute. My EKG was abnormal. I was treated with an IV for
several hours until my pulse came down. I was diagnosed again with
Tachycardia and told to visit a cardiologist, immediately! I visited the hospital

9

emergency room again, before seeing the cardiologist, with the same high pulse,
and received the same IV treatment. Dr. Jennifer Eakin, Cardiologist, Delaware
Cardiovascular Associates, saw me within a week of calling her office. She ran
a series of tests. My pulse was very high, 140 beats per minute. My EKG was
abnormal. She assigned me to wear a heart monitor on my chest for two weeks.
She diagnosed that I have Tachycardia caused by Invega, a known side effect.
She wrote that the medication should be discontinued immediately. She
prescribed Metoprolol Succrate, 50 milligrams, twice daily to control my pulse,
indefinitely. She said that I may have permanent damage to my heart and
ordered more tests. We sent her report and the report from one of the Emergency
room visits to DR. CAPIRO, CONNECTIONS, STEPHANIE JOHNSON NP,
COMMISSIONER ALICIA HOWARD, and DEPUTY ATTORNEY
GENERAL LOREN HOLLAND. Despite the news, a Court Order to take the
dangerous medication continued. There were no changes from the stipulations
from the Attorney General’s Office. DR. CAPIRO and STEPHANIE
JOHNSON halted the Invega. They prescribed me Ability, which again caused
my pulse to raise to 140 beats per minute. After taking my pulse, a
CONNECTIONS employee instructed me to go to the hospital emergency
room. I visited Bayhealth, and again received IV treatment and a chest X Ray.
Dr. Eakin s, Cardiologist s, test results showed that I have a 4mm dilation at my

10

aortic root which could in the future put me at risk for heart failure, heart attack,
and aneurysm rupture. Past medical tests of my heart show that this dilation
(aneurysm) was not present before me being medicated by DR. CAPIRO.
According to her report, my experience with Invega caused anaphylactic-like
symptoms of severe bronchospasm, throat edema, wheezing and dyspnea that
required urgent care. She changed my medications to 100 milligrams of
Metoprolol. My heart rate and blood pressure began to be monitored by
CONNECTIONS daily since being taken off Invega. Dr. Eakin has contacted
CONNECTIONS and STEPHANIE JOHNSON NP several times about my
condition. In the week of November 10th, 2019,1 was prescribed by DR.
CAPIRO and STEPHANIE JOHNSON to start taking Fluphenazine. I protested
because it has a high risk of Tachycardia and other heart problems. I was told by
DR. CAPIRO and STEPHANIE JOHNSON that if I would not take the
medication in pill form, then it would be injected into me. In summary. 5 days
passed since I started taking the medication on Saturday November 16, 2019.
On Monday, my pulse ranged from 100-136 beats per minute at
CONNECTIONS. CONNECTIONS called DR. CAPIRO and STEPHANIE
JOHNSON, who insisted that I continue taking the drug despite the life
threatening side effects. If I refused the medication, I would be arrested and
hospitalized and the medication would be administered there. Within the week,

11

my pulse again registered between 120-130 beats per minute. Tachycardia is a
very serious heart condition. It can lead to heart failure, stroke, heart attack,
aneurysm, and more. Prior to being involuntarily treated in this way, I have
never had any heart problems. DR. CAPIRO prescribed the following
medications, in high doses: Invega, Ability, Fluephenazine, & Haldol. All of the
medications have a high risk of heart disease. Their risks are included in the
Pharmacist printout that comes with the medications at Rite Aid. The doctor did
not change the court-ordered medications when my healthy pulse started to rise
and give warning signs. He did not change the medication when my heart rate
went over 100 beats per minute, tachycardia. He did not change the medications
when my pulse went over 120 beats per minute and I had to be repeatedly
hospitalized. He did change the medications immediately, when my pulse went
over 140 beats per minute, my new Cardiologist repeatedly contacted him, and
an aneurysm grew on my heart. He changed my medication to Ability, which
has pharmacist-printed high risk side effects of heart disease. Again, my heart
rate rose. He changed my medication to Fluephenazine, another medication with
high risk of heart disease that is printed by the pharmacy. Again, my heart rate
rose. He, begrudgingly, following a Court hearing, changed my medication to
Haldol. Haldol has a high risk of heart disease. An accompanying printed
warning comes with the medication. After I filed suit, I contacted the Attorney

12

General, Delaware’s Governor Carney, and my local State Representative
Vanderwende, he reduced my dose to a small amount. When the small amount
of Haldol was shown to still injure my heart, DR. CAPIRO refused to make any
changes. He testified at several Hearings that I was non-compliant with
medication Orders because I refused to take high-dose injections of the drugs
that are endmg my life by their side effects. I am currently taking a prescribed
amount of 200 milligrams of Metoprolol, daily, the maximum dose.
DR. CAPIRO has testified many times at my Involuntary Commitment
Hearings. He has testified, more than once, that I have all of the symptoms of
schizophrenia: 1. Delusions 2. Hallucinations 3. Grossly Disorganized
Communication 4. Abnormal Body Movements 5. Aversion & Negat ive
Symptoms. When asked to show evidence, he has refused, saying it is known
and well documented. The Court has never forced him to produce any evidence
-of his claims. Even when his testimony is refuted by the Diagnostic and
Statistical Manual of Mental Health Disorders, DSM IV, the Court accepts his
testimony as true and accurate. The Court claims that he is an expert, and that
another expert would have to be provided by me to refute him. The Court has
said that the DSM:IV is not a valid source against DR. CAPIRO. DR. CAPIRO
does not have a degree from a high school, college, or medical school in the
United States. He only lists his medical school. He graduated from the

13

Universidad C E T E C Escuela De Medicma m 1983. In session, I asked him to
recite some Latin to prove the authenticity of his medical school attendance. He
refused. At different Hearings, I have pointed out that by accurately responding
to me, he & and the Court show that I do not have Disorganized
Communication. My presence in the Court shows all witnesses that I do not
have any Hallucinations, Aversion, Negative Symptoms, or Abnormal Body
Movements. To which, the Court responded for the Doctor: saying that I have
Delusions. The doctor said, I have delusions of being raped and that my legal
mother is not my mother. I responded by saying that even if that is true,
delusions are only one symptom that they can claim, and one must have at least
2 symptoms to have schizophrenia, as it states in the DSM. My whole body
shows the scars of my decades of being raped, m my childhood and teenage
years. I showed the paternity test that identified my legal mother as an X gender
not an XX or woman. The Doctor stated that, even though I have no signs of
schizophrenia, it is only because I am on medication. The doctor stated that the
life endmg side effects are worthwhile and better than I was doing before. The
Court agreed. I pointed out that prior to receiving medications, I was inducted as
a lifetime member into a National Honor Society, I have the highest score on a
portion of the Delaware State Test, I scored above 1300 on my SATs in the year
2003,1 am a President s Education Award Winner, and I have been invited to

14

several gubernatorial balls and inaugurations. Since being court ordered, I have
returned to college, made the Dean’s List several times, and graduated with an
Associates Degree in Legal Studies. My Court Order continued until I found
another doctor who testified that I am not a threat to myself or others. I was
Court Ordered from November 2017-July 2020.1 may die at any time from the
toll of new life threatening illnesses that are undeniably caused by the doctor
prescribed, involuntary, court ordered medications. The doctor never prescribed
any medications to treat my heart.
The Delaware Superior Court, Judge Neil Eason Primos, decided that my
complaint is factually frivolous” and my allegations are “baseless, of little or
no weight, value or importance, [or] not worthy of serious attention or trivial.”
He decided that my claims are “legally frivolous” and are “based on an
indisputably meritless legal theory.” He decided that my claims were
----- malicious ’ and that they were “designed to vex, injure or harass, or which are
otherwise abusive of the judicial process or which realleges pending or
previously litigated claims.” He claimed to base his decision in 10 Delaware
Code Subsection 8803. He claimed that my complaints were previously decided
m Jones v. Dr. M. Hay (2019) Del. Superior Court K19C-11-029 NEP, and
Jones v. Commissioner A. Howard (2018) U.S. District Court ofDelaware
18-1207 RGA. The Supreme Court of Delaware Affirmed.

15

REASONS FOR GRANTING THE PETITION

The Defendant acted in violation of my rights under 42 U.S.C. S 1983Anyone under color of law who causes or subjects anyone in U.S. jurisdiction
to the deprivation of any Constitutional rights shall be liable to the injured party
in an action of law.” The 14th Amendment makes the 8th Amendment applicable
to the States. The 8th Amendment protects me from cruel and unusual
punishments which mcludes deliberate indifference to serious medical needs.
Deliberate indifference, defined in Estelle v. Gamble, 429 U.S 97 (1976) is the
unnecessary and wanton infliction of pain. Deliberate mdifference occurs when
a person actmg under color of law knows of and disregards an excessive risk to
patient health or safety, Farmer v. Brennan 511 U.S. 825 S.Ct (1970)
........... 1x1 Johnson v. Connections 196 A. 3d 412, a serious medical need is
defined as one previously diagnosed by a physician or one so obvious that a
layperson could recognize it and the need for a physician’s attention. In Lindsey
v. Brady 537 F Supp 2d 666, a serious medical need is when a patient's
condition is such that, a failure to treat can be expected to lead to substantial and
unnecessary suffering, injury, or death (iColburn v. Upper Darby Township, 946
F. 2d 1017 3d Cir. 1991). The Defendant showed deliberate indifference to my

16

serious medical needs and wantonly treated me which led to more life
threatening side effects, including tachycardia.
There are four elements of negligence. There is a duty of care to treat
patients who come into a physician’s care or at least to do no harm

. There is a

breach of this duty of care when he showed deliberate indifference to

my

serious medical needs and wantonly, maliciously, treated me for a disease that
they must have known I did not have. He is the Causation of my contmued
suffering and illness via choosmg not to treat my conditions and worsen them
by givmg me dangerous drugs. The damages are my continued need for medical
care, and the need for an end to come for my treatment for schizophrenic
illiteracy, disorganized communication, etc. The defendant was negligent,
wanton, and malicious, in that he:
Violated my civil rights under 42 U.S.C. S1983; and
i

Violated my 8th Amendment rights by showing deliberate indifference to
a serious medical need, a type of cruel and unusual punishment.

Free me from my slaveiy and grant me my 40 acres and mule, calculated
to compensate for inflation.

17

!

1

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Matthew Jones
11366 Sussex Highway
1

Greenwood, DE 19950

!
1

(302) 349-5251

i

i

AzraelLinusSrmth@.gmai1 com

!

Dated ■.JdTZjjZ&ZO

18

